                          U.S. Department of Agriculture

                             Office of Inspector General

                             Financial Audit Operations





  Agreed-Upon Procedures: Employee Benefits,

 Withholdings, Contributions, and Supplemental

Semiannual Headcount Reporting Submitted to the

        Office of Personnel Management





                                         Report 11401-1-11
                                          September 2011
                          United States Department of Agriculture
                                  Office of Inspector General
                                   Washington, D.C. 20250

Date: September 23, 2011

The Honorable Patrick E. McFarland
Inspector General
U.S. Office of Personnel Management
Theodore Roosevelt Federal Building
1900 E Street NW, Room 6400
Washington, D.C. 20415-0001


Subject: Agreed-Upon Procedures: Employee Benefits, Withholdings, Contributions, and
         Supplemental Semiannual Headcount Reporting Submitted to the U.S. Office of
         Personnel Management


Dear Mr. McFarland:


This report presents the results of the Agreed-Upon Procedures performed on the subject

information processed by the Department of Agriculture’s Office of the Chief Financial

Officer/National Finance Center as of August 31, 2011.


Our review included information for the following entities, listed in Appendix A of the Office of

Management and Budget (OMB) Bulletin 07-04, Audit Requirements for Federal Financial

Statements, dated September 4, 2007, and amended by OMB Memorandum 09-33, dated 

September 23, 2009: Department of Agriculture, Department of Commerce, Department of

Homeland Security, Department of Housing and Urban Development, Department of Justice, 

Department of Labor, Department of the Treasury, Agency for International Development, and 

Small Business Administration.


This review was performed as required by OMB and in accordance with applicable Government

Auditing Standards and the Statements of Standards for Attestation Engagements established by

the American Institute of Certified Public Accountants.


If you have questions, please contact me at (202) 720-5907 or have a member of your staff 

contact Lynette K. Cockrell, Director, Financial Audit Operations, at (816) 823-3860.


Sincerely,




Gil H. Harden /s/

Assistant Inspector General

  for Audit

cc:

Stephen J. Agostini, Chief Financial Officer, Office of Personnel Management

Table of Contents

Executive Summary .................................................................................................1

Independent Auditors’ Report................................................................................3

Abbreviations ...........................................................................................................5

Exhibit A: Procedures Performed and Results....................................................6

Executive Summary

Agreed-Upon Procedures: Employee Benefits, Withholdings, Contributions,

and Supplemental Semiannual Headcount Reporting Submitted to the

Office of Personnel Management (Report 11401-1-11)


Results in Brief
This report presents the results of the Agreed-Upon Procedures performed on the employee
benefits, withholdings, contributions, and the Supplemental Semiannual Headcount Reports
submitted to the U.S. Office of Personnel Management (OPM) by the Department of
Agriculture’s Office of the Chief Financial Officer/National Finance Center (OCFO/NFC) as of
August 31, 2011 1.

Our objective was to perform the procedures detailed in the Office of Management and Budget
(OMB) Bulletin 07-04, Audit Requirements for Federal Financial Statements, as amended 2, to
assist OPM in assessing the reasonableness of retirement, health, and life insurance
withholdings/contributions, and employee data submitted by OCFO/NFC for the following
entities: Department of Agriculture, Department of Commerce, Department of Homeland
Security, Department of Housing and Urban Development, Department of Justice, Department of
Labor, Department of the Treasury, Agency for International Development, and Small Business
Administration. Our objective was also to assist OPM with identifying errors relating to
processing and distributing Combined Federal Campaign payroll deductions.

Similar to last year, as part of OPM’s step 2.j., we identified an error in the OCFO/NFC system’s
calculation of Option B life insurance withholdings, which mainly impacted customs officers in
the Department of Homeland Security. This occurred because OCFO/NFC’s system did not
include premium pay for overtime inspection services as part of annual pay when calculating
Option B life insurance withholdings. Also for step 6.d., we estimated that OCFO/NFC’s
calculation of Option B life insurance withholdings for the Department of Homeland Security
should have been more than 2 percent higher. OCFO/NFC management informed us that
OCFO/NFC had corrected this calculation error in PP 12, 2011, which was subsequent to the PPs
included in our review.

We also identified differences of more than 2 percent when calculating the military deposit and
salary offset headcounts as part of OPM’s step 5.b. OCFO/NFC management told us that, while
these are only memo entries reported to OPM and are not included in the total retirement
headcount, OCFO/NFC will make the necessary modifications to the program to calculate the
correct military deposit and salary offset headcounts.



1
  We selected our samples from pay period (PP) 17 (August 15, 2010, through August 28, 2010), PP 25
(December 5, 2010, through December 18, 2010), and PP 4 (February 13, 2011 through February 26, 2011). PPs 17
and 4 coincided with the OPM 1523, Supplemental Semiannual Headcount Report, as of September 9, 2010, and
March 10, 2011.
2
 OMB Bulletin 07-04, Audit Requirements for Federal Financial Statements, dated September 4, 2007, was
amended by OMB Memorandum 09-33, Technical Amendments to OMB Bulletin 07-04, Audit Requirements for
Federal Financial Statements, dated September 23, 2009.
Report 11401-1-11                                                                                      1
In addition, our calculations of retirement withholding and contribution dollars performed for
OPM’s step 6.a., in some cases, identified differences of more than 5 percent in the Civil Service
Retirement System and Federal Employees’ Retirement System military deposit subtotals
reported to OPM. OCFO/NFC management told us misallocations between the two retirement
systems may occur in some instances when payments are manually processed, but these errors
are identified and corrected in subsequent PPs.

Based on our review of documentation for individuals in our samples, we identified five errors
for benefits entered into the system by staff of the entities. Furthermore, we were unable to
verify the entries for 79 personnel documents tested in steps 2, 3, and 4 because the entities’
personnel officers were unable to locate the documents. However, we performed the
calculations for salary, retirement, life, and health insurance, where applicable, to ensure that
information from the OCFO/NFC system was accurate. We noted no exceptions.

For step 7, we analyzed 101,395 records with Combined Federal Campaign (CFC) deductions
reported by OCFO/NFC for PP 4, 2011, and noted that 73 of the records (or 0.07 percent) either
had an invalid duty station or had valid duty stations but were in areas with no CFC. We also
determined that the OCFO/NFC CFC code was not consistent with the OPM CFC code by duty
station for 5,015 (or about 5 percent) of the 101,395 records we reviewed in step 9.

Additionally, for step 8, we identified an error rate of approximately 11 percent when we
compared the name of the CFC, the Principal Combined Fund Organization, or address of the
Principal Combined Fund Organization on the list of CFC areas from the OCFO/NFC system to
the list of local CFC areas provided by OPM.

OCFO/NFC management provided the factors that may have contributed to CFC differences
identified in this report and noted that while the identified differences result in some funds being
forwarded to the wrong individual CFC areas, the total funds forwarded to United Way is
accurate. OCFO/NFC management informed that they are willing to meet with the appropriate
officials from United Way and OPM in an effort to make this process more efficient and
accurate.

Details for these and the other steps we performed are provided in exhibit A.

Recommendation Summary
We do not make any recommendations in this report.




Report 11401-1-11                                                                              2
Independent Auditors’ Report

To:	    Honorable Patrick E. McFarland
        Inspector General
        U.S. Office of Personnel Management



We have performed the procedures described in exhibit A, which were agreed to by the Inspector
General and Chief Financial Officer of the U.S. Office of Personnel Management (OPM), solely
to assist OPM with respect to the employee withholdings and employer contributions reported by
the Department of Agriculture’s Office of the Chief Financial Officer/National Finance Center
(OCFO/NFC) on the Standard Form 2812, Report of Withholdings and Contributions for Health
Benefits, Life Insurance, and Retirement, and OPM 1523, Supplemental Semiannual Headcount
Report 3. The reports submitted by OCFO/NFC included information for the following entities
listed in Appendix A of the Office of Management and Budget (OMB) Bulletin 07-04, Audit
Requirements for Federal Financial Statements, as amended 4: Department of Agriculture,
Department of Commerce, Department of Homeland Security, Department of Housing and
Urban Development, Department of Justice, Department of Labor, Department of the Treasury,
Agency for International Development, and Small Business Administration.

The engagement to apply the Agreed-Upon Procedures was performed in accordance with
applicable Government Auditing Standards and the Statement of Standards for Attestation
Engagements established by the American Institute of Certified Public Accountants. The
sufficiency of the procedures is solely the responsibility of the Inspector General and the Chief
Financial Officer of OPM. Consequently, we make no representations regarding the sufficiency
of the procedures described either for the purpose for which this report has been requested or for
any other purpose. The results of the engagement are detailed in exhibit A.

We were not engaged to, and did not, perform an audit, the objective of which would be the
expression of an opinion on the withholdings and contributions for health benefits, life insurance,
retirements; the Combined Federal Campaign; and the headcount reports prepared by
OCFO/NFC. Accordingly, we do not express such an opinion. Had we performed additional
procedures, other matters might have come to our attention that would have been reported to
you.




3
 We selected our samples from pay period (PP) 17 (August 15, 2010, through August 28, 2010), PP 25
(December 5, 2010, through December 18, 2010), and PP 4 (February 13, 2011 through February 26, 2011). PPs 17
and 4 coincided with OPM 1523, Supplemental Semiannual Headcount Report, as of September 9, 2010, and
March 10, 2011.
4
 OMB Bulletin 07-04, Audit Requirements for Federal Financial Statements, dated September 4, 2007, was
amended by OMB Memorandum 09-33, Technical Amendments to OMB Bulletin 07-04, Audit Requirements for
Federal Financial Statements, dated September 23, 2009.
Report 11401-1-11                                                                                      3
This report is intended solely for use of the Inspector General and Chief Financial Officer of
OPM and should not be used by those who have not agreed to the procedures and taken
responsibility for the sufficiency of the procedures for their purposes.

Gil H. Harden /s/
Assistant Inspector General
 for Audit

September 20, 2011




Report 11401-1-11                                                                                4
Abbreviations


CFC ............................. Combined Federal Campaign

CSRS........................... Civil Service Retirement System

FEGLI ......................... Federal Employees’ Group Life Insurance

FEHB .......................... Federal Employees Health Benefits

FERS ........................... Federal Employees’ Retirement System

NFC............................. National Finance Center

OCFO.......................... Office of the Chief Financial Officer

OMB ........................... Office of Management and Budget

OPF ............................. official personnel file

OPM............................ U.S. Office of Personnel Management

PP ................................ Pay Period

RITS............................ Retirement and Insurance Transfer System

SF ................................ Standard Form





Report 11401-1-11                                                            5
Exhibit A: Procedures Performed and Results

                                                                             Exhibit A – Page 1 of 13

   1.	 Compare the Retirement and Insurance Transfer System (RITS) submission data to the
       payroll information by performing the following procedures (Note: For cross-servicing
       agencies, if the internal controls are the same for all agencies serviced, it is only
       necessary to perform this procedure for one agency):

      a.	 Recalculate the mathematical accuracy of the payroll information.

      b.	 Recalculate the mathematical accuracy of the RITS submission for the payroll

          information in step 1.a.


      c.	 Compare the employee withholding information at the aggregate level for retirement,
          health benefits, and life insurance (as adjusted for reconciling items) shown on the
          payroll information obtained in step 1.a. to the related amounts shown on the RITS
          submission for the corresponding period.

      Report any differences for each of the retirement, health benefits, and life insurance
      (categories) for step 1.c. that are over 1 percent of the aggregate amount reported for each
      of the three categories. Obtain from management a management official name, an
      explanation, telephone number, and an email address for the differences above the 1
      percent threshold.

      Results

      There were no differences over 1 percent.

   2.	 See sub-steps below.

      a.	 Randomly select a total of 25 individuals who were in the payroll system for all three
          of the RITS submissions selected above that meet all of the following criteria:

          •	 Covered by the Civil Service Retirement System (CSRS) or the Federal
             Employees Retirement System (FERS);

          •	 Enrolled in the Federal Employees Health Benefits (FEHB) Program;

          •	 Covered by Basic Life Insurance; and

          •	 Covered by at least one Federal Employees’ Group Life Insurance (FEGLI)
             optional coverage (Option A, B, or C)

      b.	 Obtain the following documents, either in electronic format or hard copy format, from
          the official personnel file (OPF) for each individual selected in step 2.a. Hard copies
          can be originals or certified copies.




Report 11401-1-11                                                                              6
Exhibit A: Procedures Performed and Results

                                                                              Exhibit A – Page 2 of 13

          •	 All Notifications of Personnel Actions Standard Form-50 (SF) covering the pay
             periods in the RITS submissions chosen;

          •	 The Health Benefits Election Form (SF-2809) covering the pay periods in the
             RITS submissions chosen or, if applicable, obtain a report (via the agency
             personnel office) from the agency’s automated system that allows participants to
             change benefits (e.g., Employee Express), for any health benefits transactions in
             that system for the individuals selected in step 2.a. (Note: A new SF-2809 is
             needed only if an employee is changing health benefit plans. Therefore, the form
             could be many years old). Also for health benefits, compare the date of
             transaction with the date on the certified copy of the SF-2809 or the agency’s
             automated system report obtained above to identify whether the health benefit
             information to be used in the step 2.f. covers the pay periods in the RITS
             submissions chosen; and

          •	 The Life Insurance Election Form (SF-2817) covering the pay periods in the RITS
             submission chosen (note: a new SF-2817 is needed only if an employee is
             changing life insurance coverage; therefore, the form could be many years old).

       Results

       Personnel officers were not able to locate the following 66 documents; however, we
       performed the calculations for salary, retirement, life, and health insurance in these cases
       to ensure that information from the Office of the Chief Financial Officer/National
       Finance Center (OCFO/NFC) system was accurate.


ENTITY                                                       SF-50          FEHB           FEGLI

Department of Agriculture                                       0              0               3

Agency for International Development                            0              8               9

Department of Commerce                                          0              0               2

Department of Justice                                           3              3               2

Department of Labor                                             1              1               3

Department of Homeland Security                                 0              3               2

Department of Housing and Urban Development                     0              3               3




Report 11401-1-11                                                                               7
Exhibit A: Procedures Performed and Results

                                                                             Exhibit A – Page 3 of 13
(Note: Table Continued from Previous Page)

ENTITY                                                      SF-50          FEHB           FEGLI

Small Business Administration                                  3             11               6

Department of the Treasury                                     0              0               0

TOTAL                                                          7             29              30

       c.	 For each individual selected in step 2.a., compare the base salary used for payroll
           purposes and upon which withholdings and contributions generally are based to the
           base salary reflected on the employee’s SF-50. Report any differences resulting from
           this step and obtain management’s explanation for the differences.

       Results

       No exceptions were noted.

       d.	 For retirement for each individual selected in step 2.a., compare the retirement plan
           code from the employee’s SF-50 to the plan code used in the payroll system. Report
           any differences resulting from this step and obtain management’s explanation for the
           differences.

       Results

       No exceptions were noted.

       e.	 For each individual selected in step 2.a., calculate the retirement amount to be
           withheld and contributed for the plan code from the employee’s SF-50, by
           multiplying the base salary from the employee’s SF-50 by the official withholding
           and contribution rates required by law. Compare the calculated amounts to the actual
           amounts withheld and contributed for the retirement plan. Report any differences
           resulting from this step and obtain management’s explanation for the differences.

       Results

       No exceptions were noted.

       f.	 For health benefits for each individual selected in step 2.a., compare the employee
           withholdings and agency contributions to the official subscription rates issued by the
           U.S. Office of Personnel Management (OPM) for the plan and option elected by the
           employee, as documented by a Health Benefits Election Form (SF-2809) in the
           employee’s OPF or automated system that allows the participant to change benefits
           (e.g., Employee Express). Report any differences resulting from this step and obtain
           management’s explanation for the differences.

Report 11401-1-11                                                                              8
Exhibit A: Procedures Performed and Results

                                                                              Exhibit A – Page 4 of 13

      Results

      No exceptions were noted.

      g.	 For life insurance for each individual selected in step 2.a., confirm that Basic Life
          Insurance was elected by the employee by inspecting the Life Insurance Election
          Form (SF-2817) documented in the employee’s OPF. Report any differences
          resulting from this step and obtain management’s explanation for the differences.

      Results

      No exceptions were noted.

      h.	 For each individual selected in step 2.a., calculate the withholding and contribution
          amounts for Basic Life Insurance using the following:

          •	 For employee withholdings: round the employee’s annual base salary up to the
             nearest thousand dollars and add $2,000. Divide this total by 1,000 and multiply
             by the rate required by law. The life insurance rates are on OPM’s website at
             http://www.opm.gov/insure/life/rates/index.asp.

          •	 For agency contributions: divide the employee withholdings calculated above by
             two.

                Compare the calculated employee withholdings and agency contributions to the
                actual amounts withheld and contributed for Basic Life Insurance. Report any
                differences resulting from this step and obtain management’s explanation for the
                differences.

      Results

      No exceptions were noted.

      i.	 Also, for life insurance for each individual selected in step 2.a., compare optional
          coverage elected as documented on the SF-2817 in the employee’s OPF to the
          optional coverage documented in the payroll system. Report any differences resulting
          from this step and obtain management’s explanation for the differences.

      Results

      We found two FEGLI codes in the payroll system that did not match the optional
      coverage elected on the SF-2817 - one each at the Department of the Treasury and Small
      Business Administration. Department of Treasury personnel confirmed the processing
      error and told us they were in the process of correcting the error. Small Business
      Administration personnel did not respond to our requests to confirm the error.

Report 11401-1-11                                                                               9
Exhibit A: Procedures Performed and Results

                                                                             Exhibit A – Page 5 of 13

      j.	 For each individual selected in step 2.a., calculate the withholding amounts for
          optional life insurance using the following:

          •	 For Option A: Locate the employee’s age group using the age groups provided for
             Option A in the FEGLI Program Booklet. The withholding amount to be used is
             the rate listed in the FEGLI Program Booklet for that age group. Compare the
             calculated amount to the amount withheld for Option A Life Insurance. Report
             any differences resulting from this step and obtain management’s explanation for
             the differences.

      Results

      No exceptions were noted.

          •	 For Option B: Inspect the SF-2817 to obtain the number of multiples chosen for
             Option B. Locate the employee’s age group using the age groups provided for
             Option B in the FEGLI Program Booklet. Round the employee’s annual rate of
             basic pay up to the next 1,000, divide it by 1,000, and then multiply it by the rate
             for the respective age group. Multiply this amount by the number of multiples
             chosen for Option B Life Insurance. Compare the calculated amount to the
             amount withheld for Option B Life Insurance. Report any differences resulting
             from this step and obtain management’s explanation for the differences.

      Results

      Similar to last year, we identified an error in the OCFO/NFC system’s calculation of
      Option B life insurance withholdings, which mainly impacted customs officers in the
      Department of Homeland Security. This occurred because OCFO/NFC’s system did not
      include premium pay for overtime inspection services as part of annual pay when
      calculating Option B life insurance withholdings. Of the employees we randomly
      selected for OPM’s step 2, three were customs officers who elected Option B, and all
      three of their withholdings for Option B for the three pay periods we audited were
      approximately 11 to 19 percent lower than what they should have been due to this
      exclusion.

      OCFO/NFC officials informed that a system modification was made to correct the
      calculation error in pay period (PP) 12, 2011, which was subsequent to the PPs included
      in our review.

          •	 For Option C: Inspect the SF-2817 to obtain the number of multiples chosen for
             Option C. Locate the employee’s age group using the age groups provided for
             Option C in the FEGLI Program Booklet. Multiply the rate for the age group by
             the number of multiples chosen for Option C Life Insurance. Compare the
             calculated amount to the amount withheld for Option C Life Insurance. Report

Report 11401-1-11                                                                            10
Exhibit A: Procedures Performed and Results

                                                                            Exhibit A – Page 6 of 13

                any differences resulting from this step and obtain management’s explanation for
                the differences.

      Results

      No exceptions were noted.

   3.	 Randomly select a total of 10 employees who have no health benefits withholdings from
       the payroll information corresponding to the three RITS submissions selected above and
       perform the following for each employee selected.

      a.	 Obtain SF-2809s covering the PPs in the RITS submissions chosen, either in
          electronic or hard copy format, from the selected employee’s OPF or, if applicable,
          obtain a report (via the agency personnel office) from the agency’s automated system
          that allows participants to change benefits (e.g., Employee Express) for any health
          benefit transactions in that system for the individuals selected. Hard copies can be
          originals or certified copies. Inspect the documentation (that is, SF-2809 or the
          agency’s system-generated report) to identify whether health benefits coverage was
          not elected. This can be identified in the following ways:

          •	 Absence of an SF-2809 in the OPF and no election of coverage made through the
             agency’s automated system that allows participants to change benefits (e.g.,
             Employee Express); or

          •	 An SF-2809 in the OPF with Section E checked (indicating cancellation of
             coverage) and no later election of coverage through the agency’s automated
             system that allows participants to change benefits (e.g., Employee Express); or

          •	 Cancellation of coverage through the agency’s automated system that allows
             participants to change benefits (e.g., Employee Express) and no later election of
             coverage with an SF-2809.

      b.	 Compare the result in step 3.a. to the RITS submissions. Report any differences
          resulting from this step and obtain management’s explanation for the differences.

      Results

      Personnel officers could not locate four of the SF-2809 in the employees’ OPFs (one each
      at the Department of Commerce, Justice, Labor, and Housing and Urban Development).
      We also noted that the correct health insurance deductions were not withheld from two
      Agency for International Development employees’ salaries even though they submitted
      the SF-2809 forms electing health insurance. We attributed these two errors to agency
      personnel not processing the SF-2809 timely. No other exceptions were noted.



Report 11401-1-11                                                                           11
Exhibit A: Procedures Performed and Results

                                                                             Exhibit A – Page 7 of 13

   4.	 Randomly select a total of 10 employees who have no life insurance withholdings from
       the payroll information corresponding to the three RITS submissions selected above and
       perform the following for each employee selected.

      a.	 Obtain the SF-2817s covering the PPs in the RITS submission chosen, either in
          electronic or hard copy format, from the selected employee’s OPF. Hard copies can
          be originals or certified copies. Inspect the SF-2817 to identify that the employee
          waived or canceled Basic Life Insurance coverage.

      b.	 Compare the result in step 4.a. to the RITS submissions. Report any differences
          resulting from this step and obtain management’s explanation for the differences.

      Results

      The personnel officers could not locate nine of the forms (four at the Agency for
      International Development, two at the Department of Homeland Security, and one each at
      the Department of Commerce, Justice, and Housing and Urban Development). We also
      identified an administrative error at the Department of Commerce where an employee
      should have had withholdings from his salary for automatic basic life insurance coverage.
      Agency personnel informed us that they corrected the error and billed the employee for
      the missed premiums. No other exceptions were noted.

   5.	 Calculate the headcount reflected on the September 2010 and March 2011 Supplemental
       Semiannual Headcount Report selected, as follows:

      a.	 Obtain existing payroll information (from step 1.a.) supporting each Supplemental
          Semiannual Headcount Report. If existing payroll data are not available, obtain a
          payroll system query that summarizes detailed payroll data supporting each
          Supplemental Semiannual Headcount Report, as follows:

          •	 Benefit category (see Supplemental Semiannual Headcount Report),

          •	 Dollar amount of withholdings and contributions,

          •	 Number enrolled (deductions made/no deductions),

          •	 Central personnel data file code, and

          •	 Aggregate base salary.

      b.	 Recalculate the headcount reflected on each Supplemental Semiannual Headcount
          Report. If an electronic file is not available, a suggested method of recalculating the
          headcount is as follows: (1) estimate the number of employees per payroll register
          page by counting the employees listed on several pages, (2) count the number of
          pages in the payroll register, and (3) multiply the number of employees per page by

Report 11401-1-11                                                                            12
Exhibit A: Procedures Performed and Results

                                                                            Exhibit A – Page 8 of 13

          the number of pages, or count (using a computer audit routine) the number of
          employees on the payroll data file for the period.

      c.	 Compare the payroll information obtained in step 5.a. and the calculated headcount
          from step 5.b. to the information shown on each respective Supplemental Semiannual
          Headcount Report.

      d.	 Report any differences (i.e., gross rather than net) greater than 2 percent between the
          headcount reporting on each respective agency Supplemental Semiannual Headcount
          Report and payroll information from step 5.a. and the calculated headcount from step
          5.b. Obtain from management a management official name, telephone number, and
          an email address, and an explanation for the differences.

      Results

      There were no differences greater than 2 percent, except our calculations for the military
      deposit and salary offset headcounts generally differed by more than 2 percent from the
      corresponding CSRS and FERS subtotals reported on the Supplemental Semiannual
      Headcount Report. OCFO/NFC management told us that, while these are only memo
      entries reported to OPM and are not included in the total retirement headcount,
      OCFO/NFC will make the necessary modifications to the program to calculate the correct
      military deposit and salary offset headcounts.

   6.	 Calculate employer and employee contributions for retirement, health benefits, and life
       insurance as follows:

      a.	 Calculate retirement withholdings and contributions for the three PPs selected in
          step 1.a. as follows:

             i.	   Multiply the CSRS and FERS payroll base by the withholding and employer
                   contribution rates required by law.

            ii.	   Compare the calculated totals from step 6.a.i. to the related amounts shown on
                   the RITS submissions. Report any differences (i.e., gross rather than net)
                   between the calculated amounts and the amounts reported on the RITS
                   submissions that are greater than 5 percent of the amounts on the RITS
                   submission, and obtain management’s explanation for the differences.

      Results

      There were no differences greater than 5 percent, except in some cases, our calculation of
      a military deposit dollar subtotal differed by more than 5 percent from the corresponding
      CSRS or FERS subtotal reported on the Supplemental Semiannual Headcount Report.
      OCFO/NFC personnel told us that misallocations between FERS and CSRS may occur if

Report 11401-1-11                                                                           13
Exhibit A: Procedures Performed and Results

                                                                             Exhibit A – Page 9 of 13

      errors were made when payments were manually processed, but the errors are identified
      and corrected in subsequent PPs.

      b.	 Calculate the employee withholdings and employer contributions for health benefits
          for the three PPs selected in step 1.a., as follows:

            i.	   Multiply the number of employees enrolled in each health benefits plan and
                  plan option by the employee withholdings and employer contributions for the
                  plan and option.

           ii.	   Sum the totals in step 6.b.i. and compare the result with the health benefit
                  withholding and contribution amounts shown on the RITS submissions.
                  Report any differences (i.e., gross rather than net) between the calculated
                  amounts and the amounts reported on the RITS submissions that are greater
                  than 5 percent of the amounts on the RITS submission, and obtain
                  management’s explanation for the differences.

      Results

      There were no differences greater than 5 percent.

      c.	 Calculate the basic life insurance employee withholdings and employer contributions
          for the three PPs selected in step 1.a., as follows:

            i.	   Obtain a payroll system query from agency payroll provider personnel to
                  obtain the total number of employees with Basic Life Insurance coverage and
                  the aggregate annual basic pay for all employees with basic life insurance.

           ii.	   For employee withholdings: Add the product of 2,000 times the number of
                  employees with Basic Life Insurance coverage from step 6.c.i. above to the
                  aggregate annual basic pay for all employees with Basic Life Insurance from
                  step 6.c.i above to calculate the estimated total Basic Life Insurance coverage.
                  Divide this calculated total by 1,000 and multiply it by the withholding rate
                  required by law. The Life Insurance withholding rates are in the FEGLI
                  Program Booklet on OPM’s website.

          iii.	   Compare the result in step 6.c.ii to the withholdings for Basic Life Insurance
                  coverage reported on the RITS submission. Report any difference (i.e., gross
                  rather than net) between the estimate and the amount of withholdings reported
                  on the RITS submission greater than 5 percent of the amounts on the RITS
                  submission, and obtain management’s explanation for the difference.




Report 11401-1-11                                                                            14
Exhibit A: Procedures Performed and Results

                                                                             Exhibit A – Page 10 of 13

      Results

      There were no differences greater than 5 percent.

           iv.     For agency contributions: Divide the results of step 6.c.ii. by two – this
                   approximates agency contributions, which are one-half of employee
                   withholdings. Compare this result to the amount reported on the RITS
                   submission. Report any differences (i.e., gross rather than net) between the
                   estimated amount and the actual amount reported on the RITS submission that
                   are greater than 5 percent of the amounts on the RITS submission, and obtain
                   management’s explanation for the differences.

      Results

      There were no differences greater than 5 percent.

      d.	 Calculate the Option A, Option B, and Option C Life Insurance coverage
          withholdings for the three PPs selected by using the detail payroll reports used to
          reconcile the RITS reports in step 1. In addition to the information used for step 1,
          the reports should include the employee’s date of birth, annual rate of basic pay, and
          the number of multiples selected for Option B and C. Note: While similar to
          step 2.j., the calculation at this step is for the entire amount reported on the RITS
          submissions for the three PPs selected, as opposed to the sample of 25 employees in
          step 2.j.

             i.	    Multiply the number of employees in each age group by the appropriate rate
                    for Option A in accordance with the rates for the age groups provided in the
                    FEGLI Program Booklet.

            ii.	    Compare the result in step 6.d.i. to the amounts for Option A reported on the
                    RITS submissions. Report any differences (i.e., gross rather than net) greater
                    than 2 percent of the amounts on the RITS submission, and obtain
                    management’s explanation for the differences.

      Results

      There were no differences greater than 2 percent.

           iii.	    Segregate the reports for Option B and Option C insurance into the age
                    groups shown in the FEGLI Program Booklet. For Option B, round the
                    employee’s annual rate of basic pay up to the next 1,000, then divide it by
                    1,000, and then multiply this amount by the rate for the age group by then
                    multiplying this by the number of multiples:

                    (Annual rate of basic pay (rounded up)/1,000*rate*multiples).

Report 11401-1-11                                                                             15
Exhibit A: Procedures Performed and Results

                                                                            Exhibit A – Page 11 of 13

                    For Option C, multiply the rate for the age group by the number of multiples
                    chosen for each employee.

            iv.	    Compare the result in step 6.d.iii. to the amounts for Option B and Option C,
                    respectively, reported on the RITS submissions. Report any differences (i.e.,
                    gross rather than net) greater than 2 percent of the amounts on the RITS
                    submissions for Option B or Option C, and obtain management’s explanation
                    for the differences.

      Results

      Similar to last year, as part of OPM’s step 6.d., we estimated that OCFO/NFC’s
      calculation of Option B life insurance withholdings for the Department of Homeland
      Security should have been more than 2 percent higher. This occurred because
      OCFO/NFC’s system did not include premium pay for overtime inspection services as
      part of annual pay when calculating Option B life insurance withholdings and mainly
      impacted customs officers in the Department of Homeland Security. OCFO/NFC
      management informed us that OCFO/NFC had corrected this calculation error in PP 12,
      2011, which was subsequent to the PPs included in our review. (See step 2j results.) No
      other exceptions were noted.
   7.	 Compare the list of field offices/duty stations to the list of local Combined Federal
       Campaign (CFC) campaigns obtained from OPM’s Office of CFC Operations.
       Determine in which campaign each field office/duty station is located. (Note: It is
       possible for a field office/duty station to be in a location with no local CFC campaign.)

      Report all instances of the following as findings: A federal agency has a CFC deduction
      for an employee whose official duty station is in an area with no local CFC campaign.

      Results

      We analyzed 101,395 records with CFC deductions reported by OCFO/NFC for PP 4,
      2011, and noted that 73 (or 0.07 percent) of the records either had an invalid duty station
      or had valid duty stations but were in areas with no CFC. (Of the 73 records, 27 had one
      invalid duty station code, and 46 had valid duty station codes but were in areas with no
      CFCs.) Without knowing the valid duty station code, we could not determine the correct
      CFC code using OPM’s duty station-to-CFC crosswalk. See step 9 results for
      OCFO/NFC management’s response.

   8.	 Compare the list of accounting codes to the identified campaigns for each field
       office/duty station.

      a.	 Determine the accounting code for each field office/duty station.



Report 11401-1-11                                                                            16
Exhibit A: Procedures Performed and Results

                                                                            Exhibit A – Page 12 of 13


      b.	 Determine the name of the campaign, the Principal Combined Fund Organization,
          and address of the Principal Combined Fund Organization in the agency payroll
          provider’s system agree with the information for that field office/duty station on the
          list of local CFC campaigns obtained from OPM’s Office of CFC Operations.

      Report all instances of the following as findings: The name of the campaign, Principal
      Combined Fund Organization, or address of the Principal Combined Fund Organization
      on the list of accounting codes from the Federal agency payroll provider office does not
      agree to the information on the list of all local CFC campaigns obtained from OPM’s
      Office of CFC Operations.

      Results

      We identified an error rate of approximately 11 percent when we compared the name of
      the CFC campaign, Principal Combined Fund Organization, or address of the Principal
      Combined Fund Organization on the list of CFC areas from the OCFO/NFC system to the
      list of local CFC areas provided by OPM. See step 9 results for OCFO/NFC
      management’s response.

   9.	 Sort the report of all employees with CFC deductions by official duty station.

      a.	 Compare the official duty stations to the campaigns identified for those locations.

      b.	 Compare the accounting codes for each employee with CFC deductions to the
          accounting code identified for that employee’s official duty station. Determine if this
          agrees with the accounting code identified for that filed/duty station.

      Report all instances of the following as findings: The accounting code for an employee
      with CFC deductions does not agree to the accounting code for that employee’s official
      duty station.

      Results

      Of the 101,395 records with CFC deductions reported by OCFO/NFC for PP 4, 2011, we
      determined that the OCFO/NFC CFC code was not consistent with the OPM CFC code
      by duty station for 5,015 (or about 5 percent) of the records.

      OCFO/NFC management provided the following response for the CFC results in steps 7
      through 9:




Report 11401-1-11                                                                            17
Exhibit A: Procedures Performed and Results

                                                                            Exhibit A – Page 13 of 13

          The following factors may have contributed to differences identified in this report:

          OPM provides a campaign code to identify the various CFC campaign areas.
          OCFO/NFC uses a State/City code (Table Management System, Table 6)
          combination to identify various CFC campaign areas. On OPM’s list, there could be
          more than one campaign associated with a particular State/City. OPM is using a
          “duty station to CFC campaign” crosswalk to identify the CFC campaign area
          associated with an employee’s duty station. However, the CFC form does not capture
          duty station information, so it is up to agency personnel who enter the CFC
          information in the system to determine the correct campaign area.

          OCFO/NFC enters CFC information for its employees only, which represents 0.54
          percent of all employees serviced by OCFO/NFC with CFC contributions. Each
          customer agency is responsible for entering their own employees’ CFC data, which
          represents the remaining 99.46 percent of CFC contributors. Because of the problems
          stated above, and the fact the CFC is a once a year entry process, the majority of
          differences may be the direct result of input errors by agency personnel unfamiliar
          with the process.

          There may be some additional differences resulting from employees completing CFC
          forms while in one duty location, and then transferring to another duty location. That
          would result in their current duty station not matching with the previously chosen
          CFC campaign.

          While the total funds forwarded to United Way is accurate, the identified differences
          result in some funds being forwarded to the wrong individual CFC campaigns.

          OCFO/NFC is willing to meet with the appropriate officials from United Way and
          OPM in an effort to make this process more efficient and accurate. Some steps that
          may improve the accuracy of the process are:

          • The CFC form should be revised to include the duty station, and OPM should
          provide clear guidance to use the duty station when determining the campaign area.

          • OCFO/NFC and OPM should work together to reconcile campaign codes and
          duty station information prior to providing that information to the agencies for the
          CFC campaign.




Report 11401-1-11                                                                            18
